<html>
<title> - THE COLLAPSE OF THE RULE OF LAW IN VENEZUELA: WHAT THE UNITED STATES AND THE INTERNATIONAL COMMUNITY CAN DO TO RESTORE DEMOCRACY</title>
<body><pre>[Senate Hearing 115-696]
[From the U.S. Government Publishing Office]


                                                    S. Hrg. 115-696

                    THE COLLAPSE OF THE RULE OF LAW
                IN VENEZUELA: WHAT THE UNITED STATES AND
                    THE INTERNATIONAL COMMUNITY CAN
                        DO TO RESTORE DEMOCRACY

=======================================================================

                                HEARING

                               BEFORE THE

                        SUBCOMMITTEE ON WESTERN
                    HEMISPHERE, TRANSNATIONAL CRIME,
                  CIVILIAN SECURITY, DEMOCRACY, HUMAN
                   RIGHTS, AND GLOBAL WOMEN'S ISSUES

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 19, 2017

                               __________


       Printed for the use of the Committee on Foreign Relations

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-908 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                BOB CORKER, Tennessee, Chairman        
JAMES E. RISCH, Idaho                BENJAMIN L. CARDIN, Maryland
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               JEANNE SHAHEEN, New Hampshire
JEFF FLAKE, Arizona                  CHRISTOPHER A. COONS, Delaware
CORY GARDNER, Colorado               TOM UDALL, New Mexico
TODD, YOUNG, Indiana                 CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
JOHNNY ISAKSON, Georgia              EDWARD J. MARKEY, Massachusetts
ROB PORTMAN, Ohio                    JEFF MERKLEY, Oregon
RAND PAUL, Kentucky                  CORY A. BOOKER, New Jersey
                  Todd Womack, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        




       SUBCOMMITTEE ON WESTERN HEMISPHERE, TRANSNATIONAL        
           CRIME, CIVILIAN SECURITY, DEMOCRACY, HUMAN        
               RIGHTS, AND GLOBAL WOMEN'S ISSUES        

                 MARCO RUBIO, Florida, Chairman        
RON JOHNSON, Wisconsin               ROBERT MENENDEZ, New Jersey
JEFF FLAKE, Arizona                  TOM UDALL, New Mexico
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
JOHNNY ISAKSON, Georgia              TIM KAINE, Virginia

                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Rubio, Hon. Marco, U.S. Senator from Florida.....................     1


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     4


Almagro, Hon. Luis, Secretary General, Organization of American 
  States (OAS), Washington, DC...................................     6
    Prepared statement...........................................    24

              Additional Material Submitted for the Record

Statement for the Record Submitted by Carlos Vecchio, LLM and 
  MPA, National Political Coordinator of Voluntad Popular 
  (Popular Will, opposition political party, member of the 
  Unitary Alliance)..............................................    29


Organization of American States (OAS)--Report on Venezuela--May 
  30, 2016. Submitted to the committee by Luis Almagro, Secretary 
  General, OAS...................................................    31


Organization of American States (OAS)--Updated Report on 
  Venezuela--March 14, 2017. Submitted to the committee by Luis 
  Almagro, Secretary General, OAS................................    32


Organization of American States (OAS)--Resolution on the Recent 
  Events in Venezuela............................................    33


Balance de Victimas Fallecadas y Lesionadas Durante--
  Manifestaciones en Abril-Julio de 2017.........................    35




                             (iii)        

 
                   THE COLLAPSE OF THE RULE OF LAW IN
                   VENEZUELA: WHAT THE UNITED STATES
                    AND THE INTERNATIONAL COMMUNITY
                      CAN DO TO RESTORE DEMOCRACY

                              ----------                              


                        WEDNESDAY, JULY 19, 2017

                               U.S. Senate,
 Subcommittee on Western Hemisphere, Transnational 
Crime, Civilian Security, Democracy, Human Rights, 
                         and Global Women's Issues,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 4:16 p.m. in 
Room SD-419, Dirksen Senate Office Building, Hon. Marco Rubio, 
chairman of the subcommittee, presiding.
    Present: Senators Rubio [presiding], Gardner, Menendez, and 
Kaine.

            OPENING STATEMENT OF HON. MARCO RUBIO, 
                   U.S. SENATOR FROM FLORIDA

    Senator Rubio. Good afternoon. This is a hearing of the 
Subcommittee on the Western Hemisphere, Transnational Crime, 
Civilian Security, Democracy, Human Rights, and Global Women's 
Issues.
    This committee has jurisdiction over a large number of 
issues. It is rare that every single one of them is being 
challenged in one place at one time, and I think the subject of 
today's hearing is a place where you can argue that 
transnational crime is present. Civilian security is in danger. 
Democracy is severely endangered. Human rights is violated on a 
regular basis. And as far as global women's issues, some of the 
bravest activists on behalf of Venezuelan democracy have been 
women, including Lilian Tintori, among others, who have been 
treated brutally by the Maduro regime.
    The title of this hearing is ``The Collapse of the Rule of 
Law in Venezuela: What the United States and the International 
Community Can Do to Restore Democracy'' and today we will have 
one panel and one witness, and it will feature the Honorable 
Luis Almagro, the Secretary General of the Organization of 
American States. It is a unique privilege and honor to have him 
here today. As the ranking member commented in the hearing we 
had in this very room about an hour ago, it is not a 
commonplace occurrence in which an ambassador of an 
international multinational organization such as the OAS is 
before us.
    Secretary Almagro was elected Secretary General of the OAS 
on the 18th of March, the year 2015. He is a career diplomat. 
He was the Foreign Minister of Uruguay from 2010 to 2015, and 
he has extensive regional and international experience. In 
2014, ``Foreign Policy'' magazine named him a leading global 
thinker, one of 10 decision-makers in the world who have been 
granted this international distinction.
    But the area in which we have seen him, I believe, exhibit 
extraordinary leadership is as a staunch voice on efforts to 
restore democracy in Venezuela. And we are fortunate to have 
him here with us today.
    I am going to abbreviate my opening statement because I do 
want to get into the Secretary General's statement. And I know 
that the ranking member, who has been working on this issue 
even before me being here in the Senate, has comments that he 
needs and wants and should make as well.
    I want to be fundamentally clear. There is a lot of 
misunderstanding about the conflict that is occurring in 
Venezuela. A lot of people talk to me about the opposition, and 
while, indeed, they are in opposition to Maduro's regime, they 
are in fact the majority party in the National Assembly. In 
essence, they are the majority, not the opposition. The problem 
is that the people with the guns and the army who are in charge 
of Venezuela have canceled democracy.
    For those, I imagine, attending this hearing today you do 
so because you have an interest in it. For those who may watch 
it now or in the future, you need to understand that what has 
happened there is the following. And I apply what has happened 
there to what it would be like if it happened here.
    Imagine if the United States had an executive branch that 
basically took over the Supreme Court and put political cronies 
on it, canceled all funding and all function of the Congress, 
both House and Senate, went further and actually ordered the 
Capitol Police to attack the United States Congress if we tried 
to conduct our functions, cut off all operations, no salaries, 
no paper, no ink, nothing, no lights in terms of being able to 
meet, in essence, completely wiped out an elected National 
Assembly under the constitution of that country.
    Imagine further, that they announce we are not holding 
elections. We are not holding elections this year for governors 
and the legislative branch. We are not holding elections in the 
future for President. In fact, we are going to put together 
this fraudulent assembly, and we are going to impose a Cuban-
style dictatorship under the guise of some sort of popular 
governance. That is the situation in Venezuela.
    Imagine even further, as an element of all this, that 
elements within the government armed non-uniformed individuals 
and ordered them into the streets to attack protesters and beat 
them. That is the situation in Venezuela.
    Imagine that they make trumped-up charges where they 
basically arrest political opponents, accuse them of ridiculous 
things, and jail them for extensive periods of time without 
charging, without recourse to the courts. That is the situation 
in Venezuela.
    And that is what brings us to this point. What the 
overwhelming majority of people in Venezuela are asking for is 
simply a return to constitutional order. And I would say to you 
that it is not just the people that do not like the current 
leadership. It is people that actually agreed with Hugo Chavez. 
There are people who were supporters of Hugo Chavez and of the 
constitution of Venezuela, and they have now aligned themselves 
with that cause, not because they ideologically agree with some 
members of the opposition but because, above all else, they 
want to see the rule of law restored. Chief among those voices 
is the current Attorney General of Venezuela, who, on a steady 
pace over a period of time, has begun to be critical of the 
Maduro regime. Today, she is now being charged with crimes for 
having done so. This is the horrifying situation.
    And if on the 30th of July they move forward with this 
constituent assembly, which is a fraud, it will be--for the 
first time in my recollection--nullification of the 
constitution of the democratic order of a nation in this 
hemisphere in probably over 40 years. There have been coup 
d'etats. There have been strongmen that have emerged from time 
to time and disrupted the constitutional and democratic order, 
and there have most certainly been non-democratic leaders 
elected who then have not governed as democrats. But we have 
never seen a structural imposition of a Cuban-style model in 
over 4 decades in the region. It would be tragic. It would be 
tragic anywhere.
    It is especially tragic that it is happening in Venezuela, 
a nation blessed with educated, entrepreneurial people with a 
deep culture of democracy and, by the way, one of the richest 
nations in the world, with natural resources and human 
resources. Its tragic that today its people cannot buy toilet 
paper, cannot buy toothpaste, and cannot access basic 
medications in their hospitals, all as the direct result of the 
Maduro regime's decisions.
    And finally, further complicating this matter is the 
existence within that government of narcotrafficking elements, 
multiple leaders and figures in that regime who, in addition to 
operating governmental entities, are also involved in 
narcotrafficking activity to the tune of hundreds of millions 
of dollars, if not billions. We have a catastrophe.
    And I conclude my remarks by saying that it is my hope that 
we can continue to work through organisms like the OAS in 
partnership with nations in the region such as Mexico, Canada, 
Brazil, and Argentina, among others who have stood forward on 
this. I am encouraged to see statements out of the European 
Union, out of Spain, and from multiple other nations that have 
pronounced themselves on this. I am hopeful of that. I think 
that is the ideal way forward.
    I also know this. And I do not speak for the President, but 
I have certainly spoken to the President. And I will only 
reiterate what he has already said, and I have been saying this 
now for a number of days. I have 100 percent confidence that if 
democracy is destroyed once and for all in Venezuela on the 
30th, in terms of the Maduro regime, the President of the 
United States is prepared to act unilaterally in a significant 
and swift way. And that is not a threat. That is the reporting 
of the truth.
    But in any event, we are hopeful that there is another way 
forward, but time is running out. And I certainly, within that 
context, continue to be hopeful that a real resolution can come 
about in the OAS, but not through some fake negotiation 
designed to extend and buy time, but through a process that 
restores the democratic order, restores the National Assembly, 
holds free, fair, and internationally supervised elections, and 
frees political prisoners. There is nothing to negotiate, other 
than who is in charge of making that happen. Anything else is a 
waste of time and nothing but a diversionary tactic on behalf 
of the Maduro regime to try to hold onto power.
    So we are very excited that the Secretary General is here. 
We look forward to hearing from him.
    And I recognize the ranking member, Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Well, thank you, Mr. Chairman, for 
holding this most important hearing today.
    And I especially want to thank our esteemed witness, the 
Secretary General, Luis Almagro. We are fully aware that it is 
not quite standard for the sitting Secretary General of an 
intergovernmental organization to testify before this 
committee, but your testimony and participation today speak to 
the gravity and importance of the crisis in Venezuela and in 
our hemisphere. I want to say that you have been an outspoken 
and vocal advocate for the values that bind democratic nations 
together and form the basis of regional and international 
cooperation that will ultimately bring peace and prosperity to 
our hemisphere. Given the stature of your position, I 
appreciate your leadership on Venezuela in particular, but 
beyond that, the important point of ensuring that the OAS 
stands for the principles of the rule of law, of democratic 
values, and shared responsibility, in essence, the democratic 
charter of the OAS.
    Now, between the referendum last Sunday, the proposed 
election on the 30th, and the ongoing humanitarian suffering of 
many Venezuelans, this hearing could not be more timely. The 
more than 7 million Venezuelans who braved intimidation and 
violence from their president to express themselves in a 
peaceful democratic process are testaments to the remnants of 
democracy that still thrive in Venezuela. They not only 
overwhelmingly express rejection of Maduro's efforts to further 
consolidate his own power but also show the hemisphere and the 
world the power of organization and mobilization in the face of 
an autocratic president.
    Venezuelans who have, for the past few years, suffered a 
serious humanitarian crisis--nearly 90 percent of the 
population reported last year that they did not have enough 
money to buy basic food supplies. Diseases that had previously 
been eradicated from the country, diseases such as malaria and 
diphtheria have reemerged--are still marching in the streets 
and petitioning for their basic rights.
    Even as their president prevents international support for 
the basic humanitarian needs of its citizens, blocking an 
effort by the National Assembly to facilitate international 
assistance, they are voting to demand fundamental freedoms.
    Despite the suffering of his people and the international 
outcry, Maduro insists on clinging onto the shards of a failed 
ideology his predecessor and a few colleagues in the region 
still champion. Without going into a full history of the 
calamitous actions he has taken in the name of the people or 
the revolution, some highlights include dissolving the National 
Assembly and then holding the legislative body in contempt, 
preventing the democratically-elected assembly from passing 
laws, stacking the Supreme Court with loyalists to prevent an 
effective judicial branch or check on executive power, jailing 
opposition leaders and preventing them from running for office, 
expelling foreign media and curbing freedom of the press, 
violently attacking peaceful protesters, giving control of food 
supply to the military, who turn the responsibility of 
providing for the population into a profitable black market 
operation. This is happening in our own hemisphere with 
significant consequences for regional peace and stability.
    In 2016, Venezuelans became the top United States asylum 
seekers, with claims increasing 150 percent from 2015 to 2016. 
Venezuelans are also fleeing to neighboring Colombia, itself in 
the process of implementing a precarious peace accord, and 
Brazil.
    Without vigilance and accountability, our adversaries will 
be quick to step in. So I was pleased to work with the chairman 
earlier this year to bring the Treasury Department's attention 
to Venezuela's state-owned oil company, PDVSA's mortgage of 
debt to a Russian state-owned company Rosneft. PDVSA, in turn, 
owns CITGO, which has significant infrastructure here in the 
United States. And this deal could potentially put critical 
energy infrastructure into the hands of Russia.
    China has also stepped in to help Venezuela's failing 
economy.
    In 2014, I was pleased to help the Congress pass into law 
the Venezuela Defense of Human Rights and Civil Society Act, 
which imposed sanctions on officials in the government most 
responsible for the erosion of democracy. And I am pleased to 
see Congress extend those sanctions in 2017.
    I also urged the full committee to consider the Venezuela 
Humanitarian Assistance in Defense of Democratic Governance 
Act, which we introduced in May. This comprehensive legislation 
authorizes humanitarian support, expands the scope of 
sanctions, calls on the administration to develop a 
multilateral strategy and express support for the OAS's 
democracy restoration and election monitoring efforts.
    The United States, of course, cannot act alone. Democratic 
countries in the Western Hemisphere must be united in our 
values to uphold the rule of law and to champion democratic 
values. In that vein, it is critical that the Organization of 
American States maintain pressure not just on Venezuela, but to 
try to ensure that member countries are working in a unified 
fashion. I know the Secretary General has that as part of his 
mission.
    I have been disappointed to see many countries in the 
region, particularly in the Caribbean, continue to stand with 
the assault on Venezuelan democracy or refrain from explicitly 
condemning undemocratic actions at the OAS. Along with Senator 
Rubio, I have expressed the importance of standing up with the 
people of Venezuela and unequivocally against usurpations of 
power and undemocratic actions to various foreign dignitaries. 
I know that I am banned from going to Venezuela by the Maduro 
regime, but I will continue to speak out for democracy and 
human rights in the Western Hemisphere wherever it may be and 
certainly in Venezuela.
    Mr. Secretary, we welcome you and we look forward to your 
insights.
    Senator Rubio. Thank you to the ranking member.
    Secretary, thank you for being here today, and we recognize 
you for your statement.

STATEMENT OF HON. LUIS ALMAGRO, SECRETARY GENERAL, ORGANIZATION 
              OF AMERICAN STATES, WASHINGTON, D.C.

    Secretary General Almagro. Senator Rubio, Senator Menendez, 
members of the subcommittee, thank you for this opportunity to 
be with you today as we address the ongoing crisis in 
Venezuela.
    The OAS, the Organization of American States, is the only 
multilateral forum that has taken action against the 
dictatorship in Venezuela.
    On April 3rd, 2017, the Permanent Council passed Resolution 
1078 declaring an ``alteration of the constitutional order'' in 
Venezuela.
    The OAS declared the Supreme Court decision to suspend the 
powers of the National Assembly as inconsistent with democratic 
practices and constitutes an alteration of the constitutional 
order in Venezuela.
    We urged the Venezuelan Government to ensure the full 
restoration of the democratic order.
    We requested that the Venezuelan Government safeguard the 
separation and independence of powers.
    We said that we stand ready to support measures to return 
to democratic order and to take diplomatic initiatives to 
foster the restoration of the democratic institutional system 
in accordance with the OAS founding charter and the Inter-
American Democratic Charter.
    The international community has a vital responsibility when 
faced with tyranny and repression.
    Venezuela is going through a decisive moment. In play is 
the sovereignty of the people and the survival of the 
constitution, the last link of the country with the rule of 
law. In 100 days of citizen protests, nearly 100 people have 
been killed, the majority of them young people, many of them 
minors. The number of political prisoners has risen to 473, and 
415 civilians have been brought before military courts. The 
systematic violation of human rights and basic freedoms is the 
worst attack against the constitution.
    The regime proposes more abuse, more repression, 
increasingly less freedom, and the tool that it proposes to 
institutionalize this is a Constituent Assembly, a Constituent 
Assembly imposed by decree without the people and against the 
people, setting the will of the dictatorship above the popular 
will expressed through a universal and direct vote.
    I echo the words of the Venezuelan Episcopal Conference. 
``The mentioned constituent project seeks to impose a 
dictatorial regime on the country. In addition, by privileging, 
in its composition, sectoral voting bases with no legal 
support, it violates the right to all people to elect and be 
elected and the constitutional principle of the proportional 
representation of the population according to territorial 
distribution.''
    And it underlines that ``the National Constituent Assembly 
would have supra-constitutional power, with the aim of 
eliminating the current state bodies, mainly the National 
Assembly, legitimately elected by the people.''
    It is the right and the responsibility of all citizens to 
participate in decisions relating to their own development. 
This is also a necessary condition for the full and effective 
exercise of democracy. Promoting and fostering diverse forms of 
participation strengthens democracy.
    We are in a time in which mediation efforts are taking 
place, all of them, of course, welcomed because they 
demonstrate the commitment of the international community to 
the search for a solution to the crisis. In this context, the 
institution that is in the best condition to act is the 
Episcopal Conference because it is Venezuelan, as we have said, 
because it knows people's feelings, because it knows better 
than anyone the history of this process, and because of its 
immense moral authority.
    From the international community, we have stripped the 
regime of its impunity. The alteration of the constitutional 
order has been recognized and denounced. The return of 
democracy to the country has been called for. Sanctions have 
been applied to corrupt and criminal affiliates of the regime. 
The freeing of political prisoners has been requested, and 
various mediation forums have been offered and will be offered.
    The work of the OAS has been and is essential in this 
sense, but the solution to the crisis is Venezuelan.
    Over the last month, the regime in Venezuela has buried 
democracy, the separation of power, justice, civil guarantees, 
political, economic, and social rights, as well as the 
principles that constitute a legitimate government. All the 
members of the current illegitimate government are responsible, 
and the role of the President of the National Electoral 
Council, Tibisay Lucena, has been crucial in the institutional 
collapse. An independent, impartial, healthy electoral body 
with adequate technical capabilities is fundamental to 
guarantee the political rights of citizens. Its responsibility 
is nothing less than the protection of the strict respect for 
the right to political expression of the people, the only 
sovereign that is legitimate to carry on the country.
    The formula announced by Tibisay Lucena to the National 
Constituent Assembly is as technically absurd as it is 
unconstitutional and undemocratic. The convocation of the 
Constituent Assembly is taking place outside of that stipulated 
in Article 347 of the constitution, which states, The 
Venezuelan people are the only ones who possess the original 
constituent power.'' In this way, it definitely puts an end of 
the right of the Venezuelan people to democracy.
    People like Tibisay Lucena that continue stripping 
democracy of its content work to serve the consolidation of the 
interest of the dictatorship imposed through the suffering of 
its people, sustained by the killing of its people, by the 
political imprisonment of opposition leaders, and by torture.
    The Venezuelan judiciary also has violated the fundamental 
principles by which the people are ensured justice, its 
independence. It has become an essential part of the 
organizational chart of institutional corruption. If justice 
does not follow the principles and values of democracy and the 
rule of law, this accelerates the legitimate functioning of the 
state.
    The Bolivarian National Guard and its head are directly 
responsible for the repression that has murdered, imprisoned, 
and tortured people. The brutal repression shows the National 
Guard as the perpetrator of the violation of right to life, 
freedoms, and guarantees of due process. Behind every detainee, 
every political prisoner, behind every person tortured and 
killed, there is something institutionally responsible in 
Venezuela.
    The Minister of Internal Relation, Nestor Reverol, 
Benavides Torres, General Zavarse lead the two institutions 
charged with the use of force in Venezuela. In this sense, they 
are responsible for every aggression, every shot, and every 
death.
    The return of democracy to Venezuela and the restoration of 
the rule of law is urgent. Legitimacy will only be returned to 
its institution when those in power assume their functions 
according to the constitution and the popular mandate. The 
Minister of Defense, General Vladimir Padrino Lopez, has 
separated the armed forces from their fundamental commitments 
to respect the constitution, the laws, and the institution 
itself.
    What can we do? We need to speak at the highest level, at 
the level of presidents, to make joint declarations at the 
highest level. Member states and leaders of the world must 
speak up all together and explore what tools they have at their 
disposal to act.
    I am often asked about sanctions. Let me be clear. The 
sanctions will not worsen the suffering of the Venezuelan 
people.
    A clear message must be sent to Maduro and his colleagues 
that the criminals whose corruption, whose strategy, and whose 
orders have created this crisis and killed countless of their 
citizens should be targeted and held to account.
    We support sanctions to individuals that have committed 
crimes and are accused of corruption, and we need more economic 
pressure on a government that is investing the money it earns 
through the natural resources that belong to the people to 
fight and kill that very same people.
    Torture is a crime against humanity. We intend to support 
investigations, and we ask everybody to do so that may help to 
identify the practices of torture in Venezuela and those 
responsible for them, especially in front of the International 
Criminal Court.
    All our actions should be oriented to resolve this agenda. 
The agenda is free, transparent, just general elections; the 
freeing of political prisoners; restoration of the powers of 
the National Assembly; and an emergency plan to resolve the 
humanitarian crisis of the country.
    Thank you very much.


    [Mr. Almagro's prepared statement is located at the end of 
this transcript, beginning on page 24.]


    Senator Rubio. Thank you so much.
    I will be brief in my questions. They are rather to the 
point.
    From your understanding on the issue of revenue, to the 
extent that Venezuela continues to derive revenues from its oil 
industry, is it your understanding that that money is being 
used simply to try to finance its debt at a discount? Or in 
essence, they are selling that oil now at a steep discount. Is 
it not correct that the majority of the revenues they continue 
to generate are largely being used for corruption and/or to 
finance the debt and that very little of it is being used--and 
is the reason why, for example, there is a humanitarian crisis 
in food, medicine, and other matters?
    Secretary General Almagro. If we see all figures about 
health and nutrition in Venezuela, we see that practically the 
government is not investing at all in its people. All figures 
are awful and demonstrate a clear humanitarian crisis in the 
country: the rates of child mortality, the rates of maternal 
mortality, the rates of bad nutrition of children. And diseases 
that were extinguished in Venezuela for decades like malaria or 
diphtheria have reappeared in the country.
    So we have definitely a government that is not investing at 
all in its people but just trying to buy some wills, the will 
of--through CLAP bags given in order to achieve some political 
support and, of course, to keep working in their political 
agenda in the continent and abroad.
    Nothing is improving. The Government of Venezuela is 
practically the antithesis of any government. Any government 
will try to bring the crisis down to problems, problems back 
down to difficulties and to make the difficulties disappear. 
What we see in Venezuela is the contrary. From nothing, they 
create problems. From the problems, they create crisis, and 
further they escalate this crisis. The situation of the people 
shows that the money of the national resources that belong to 
the people is used to kill these people. The only action of 
government that we see is repression these days.
    Senator Rubio. The question of humanitarian aid and 
assistance, which the Maduro regime continues to block because 
they continue to refuse to acknowledge they have a humanitarian 
crisis. There was, however, a negotiation sponsored by the 
Vatican, mediated talks in November of 2016, and there was 
discussion about establishing a channel for allowing 
humanitarian aid to reach Venezuela possibly through Caritas 
Venezuela, which is an organization affiliated with the 
Catholic Church. To date, that has not happened.
    For those who were not involved or did not see that process 
of negotiation when it comes to the humanitarian aid, to this 
day are they allowing humanitarian aid into the country?
    Secretary General Almagro. They are not allowing 
humanitarian aid into the country. And the only measure that 
somehow release some pressure, some social pressure, was when 
they opened the border with Colombia in order to allow the 
people that live in border states to be able to buy their basic 
needs on the other side. But no international help is able to 
get into the country. There is definitely a need for action 
about that. And when you do these political measures, at the 
expense of the suffering of people is the most awful way of 
doing politics and is the most covert way of doing politics.
    Senator Rubio. As you are aware, the Treasury Department of 
the United States has imposed financial sanctions on at least 
17 Venezuelans for narcotics trafficking, including nine 
current or former Venezuelan officials. For example, in 
February, the Treasury Department imposed drug trafficking 
sanctions against the vice president of the country. There are 
also very strong allegations made by defectors and others about 
the involvement of an individual by the name of Diosdado 
Cabello who I, in my personal view based on everything I have 
seen--he is not simply a political leader. He is in my view the 
Pablo Escobar of Venezuela today. He is a narcotrafficker.
    How complicated in this political dynamic is the existence 
of this narcotrafficking presence in Venezuela to the political 
overall crisis?
    Secretary General Almagro. When you see the structure of 
government and you see the closest relatives of the 
presidential family are in jail in New York and are just in New 
York for narcotraffic, then you see that the vice president is 
the second in charge has resources for about $2 billion in the 
United States that have been sanctioned, when you see that 
number three is that the Minister of Interior Reverol is also 
accused by the DEA by narcotraffic, then you have really a 
serious problem because it looks like the whole structure is 
taken by narcotraffic.
    So it is not how you move out of--how you push the 
dictatorship out and bring back democracy. It is also now how 
you dismantle narcotraffic from the state, and that is a 
completely new challenge for our organization and for our 
community. That is a very serious problem like corruption is a 
very serious problem.
    Venezuela is the most corrupt country in the continent. 
That in itself shows that nobody is judged by corruption in the 
country. The only way to judge them--it is international like 
the cases that involved corruption of PDVSA in Houston. So to 
attack these issues definitely is an imperative in all our 
country to apply sanctions that can help solutions in this 
field are extremely necessary.
    Senator Rubio. And my final question, at least for this 
round, because Senator Kaine has joined us as well, and I want 
to make sure multiple members have a chance to speak to you 
about this topic, is the following.
    It is our natural inclination as a nation and as a people 
and in the region, as is your job working a multinational 
forum, to seek for there to be a negotiated process forward. In 
this perfect world, the Maduro regime would realize that this 
is unsustainable and there would be some sort of conversation, 
a serious one, about holding elections for governor, holding 
elections for president, freeing political prisoners, and 
creating that space. However, while I am not against that 
happening, I do not believe it is going to happen, and there is 
no indication that it is going to happen.
    I would ask you to give us some insight into your views on 
negotiations, not in general, but as it pertains to Venezuela 
and, in particular, how the Maduro regime has used the ruse of 
dialogue and negotiation to buy time and divide the opposition 
and extend itself and perpetuate itself in power.
    Secretary General Almagro. Yes. We have seen that, and we 
have denounced that.

    The way that the government uses dialogue is just to 
achieve two things mainly: to release internal pressure and to 
release international pressure. That happened in the first week 
of November last year. There were not a single commitment to 
deal with the agenda that is necessary to resolve in Venezuela.

    In fact, in Venezuela, we do not call for free general 
elections. If we do not free the political prisoners, if we do 
not establish the constitutional powers to the different 
branches of government, then no solution is possible. We can go 
around that agenda as much as we can, but there will not be a 
solution. The government so far has not been able to push for a 
solution like that.

    And it is very clear that the main task--and we saw it last 
year during the procedure of the recall referendum. We see it 
this year again--is how they remain in power, no matter what. 
Imagine that in any country in the continent could be 
demonstrations and 100 demonstrators were killed anywhere--
anywhere--that government would not be standing anymore. It is 
against the basic rules of democracy and human rights.

    The government, when they cannot use this tool of dialogue, 
they just go to repression. And then they try to move back to 
create some conditions of a dialogue without facing the real 
agenda of the country.

    I think these days--you know, when the real negotiation to 
put down a dictatorship happens, it is because the dictators 
come and say, look, how is the best way we get out. And that is 
how it starts. It does not start by bringing down the National 
Constituent Assembly. It does not start trying to create side 
effects with the negotiations. You have to address the real 
agenda. So you put a date for elections. Okay, then we can have 
a dialogue. You free the political prisoners. Okay, we can have 
a dialogue. You establish the power of the National Assembly. 
Okay, we can have a dialogue. If nothing like that happens, 
then the conditions definitely are not there.

    It is awful that the people of Venezuela has been condemned 
to be killed in the street or to be submitted to the peace that 
the dictatorship provides that is a complete lack of rights.

    Senator Rubio. Well, as I turn it to the ranking member, my 
observation is when the Pope says he is no longer interested in 
continuing to participate in a dialogue because he does not 
think the Maduro government is serious about it, when the Pope 
says that, it is a pretty strong indication of how they have 
used these negotiations as a farce.

    The ranking member.

    Senator Menendez. Thank you, Mr. Chairman.

    Thank you, Mr. Secretary, for your testimony.

    I do not often read from the written testimony of 
witnesses, but you synthesized your testimony in order for 
brevity. I think there are things here worthy of reading into 
the record.
    These are your words in your statement, and I often recite 
words such as these when I am asked by reporters about the 
interventionist elements of our views:


          The reluctance of the international community to act in 
        defense of democracy has allowed the situation to deteriorate 
        incrementally, but consistently, to the point where today it 
        has become a full-blown humanitarian and security crisis.
          Every step of the way it has been too little and too late.
          The Democratic Charter was designed as a preventative tool. 
        When it was agreed, it established a very explicit authority to 
        act in every signatory state, when necessity requires,
          Venezuela signed onto the Democratic Charter, and the 
        Democratic Charter calls, as you very explicitly note here, 
        authority to act in every signatory state, when necessity 
        requires.
          When used as intended, it can prevent or stop any backsliding 
        in the regions' hard-earned democracies.
          It is true that only the people of Venezuela must solve the 
        crisis in their country. However, in Venezuela, the words of 
        civilians are met with the weapons of the Regime.
          The people of Venezuela peacefully took to the streets in 
        defense of their fundamental rights and freedoms. The Regime 
        responded strategically and systematically, targeting an 
        unarmed, civilian population with violence and terror.
          More than 100 people have been killed since the protests 
        began. That is close to one person each day.
          Of those killed, more than 30 were under the age of 21; 24 
        were students; 14 were teenagers.
          Since the protests began, more than 450 investigations into 
        human rights violations have been opened. Civil society 
        estimates that the number of civilians injured is above 15,000.
          As of July 12, there are 444 political prisoners in 
        Venezuela; the highest number since the military dictatorship 
        of Marcos Perez Jimenez.
          These statistics do not include the thousands of lives lost 
        in the humanitarian crisis.
          * * * * * * *

          The Regime has consistently rejected any and all offers of 
        international humanitarian assistance. Instead, they have 
        weaponized what little resources they do have, selecting who 
        gets what. President Maduro, his cabinet, and his military 
        leaders have blood on their hands and they must be held 
        accountable.


    Those are not the views of some members of the United 
States Senate or the statements of some members. It is the view 
of many of us, but it is a statement of the Secretary General 
of the OAS. And it is a powerful statement. And it is so sad in 
a country that has enormous human capital and tremendous 
potential.
    So, Mr. Secretary, [Spanish spoken]. I really appreciate--
you know, it is very often that in diplomacy we mitigate what 
is clearly the harsh in the light of day cannot be mitigated. 
And I appreciate your straightforwardness.
    I want to ask you--and I do not subscribe this as a 
personal failure. Institutionally I am trying to understand.
    In June, the OAS failed to garner the 23 votes necessary in 
favor of a resolution on Venezuela that was introduced by Peru.
    This is not an official sheet, so I may be wrong, and I 
will stand corrected. But I am going to read from what was a 
photograph of a sheet of who voted how. So here are the people 
who abstained: Antigua and Barbuda, Ecuador, El Salvador, 
Grenada, Haiti, Republica Dominicana, Suriname, Trinidad and 
Tobago. And then the people who voted outright no: Bolivia, 
Dominica, Nicaragua, Saint Kitts and Nevis, and Saint Vincent 
and the Grenadines.
    Why do you think that you could not achieve 23 votes in 
what is so clear? I mean, your statement is so clear, so 
unambiguous, so powerful. Why do you think that countries in 
the face of that would abstain and/or outright vote no?
    Secretary General Almagro. Because countries vote because 
of their interests and not because of principles and values 
always. They have strong economic, political, social links with 
the Government of Venezuela, and those links they definitely 
value a lot, enough not to vote against Venezuela in those 
circumstances.
    In any case, I have to say that the importance of that 
resolution was to create a group of friends in order to deal 
with the Venezuelan case. The past 2 weeks before that, it 
happened that there were something like eight or nine 
initiatives of a group of friends, mediators, and facilitators 
for the Venezuelan crisis. So that solution could have helped 
in Venezuela I think. In fact, I do not think the government 
would have accepted that way of negotiating.
    In any case, we have to keep working on those votes and we 
have to keep making evident what is going on in Venezuela. And 
the situation is clear enough, but also we have to say it 
around. We have to be loud about. And I think it also would be 
extremely useful, as I said before, that this group of friends 
in any case can start working and they can start working on the 
level of presidents and can make joint declarations. In fact, 
the biggest countries, those with the biggest GDP, the biggest 
populations--they were there in that consultation concerned 
about the situation in Venezuela. So it is possible to do it 
and to implement it and to create that group of friends at that 
level of president and to make it work and to have a loud voice 
about what is going on in Venezuela.
    Senator Menendez. Mr. Chairman, I would like to introduce 
for the record all of the names of the countries that did vote 
in favor. And for the interest of time, I have not mentioned 
them all because they should be applauded. But I do think it is 
important to name and shame those who, in essence, voted to 
allow a continuing--that is the way I look at the vote. If you 
abstain or you vote no, in the midst of what is clearly a 
violation of the Democratic Charter of the OAS, which you are a 
party and signatory to, then you are, in essence, permitting 
it.
    The last question. I have many other questions, but I will 
cease because of my colleague here who is waiting.
    Do you believe that--I look at all of the Caribbean 
countries. So many of them voted either to abstain or no. Do 
you believe that in fact Petrocaribe and its influence have 
influence on some of the voting patterns here without 
specifying any specific country?
    Secretary General Almagro. There is something that makes 
this case very particular, and it is that we are dealing with a 
big country that has fallen into dictatorship. That is 
something that the Organization usually did not do. Usually 
what we in the Organization, in general, international 
organizations are small countries with small populations that 
have a significant coup d'etat and then the action comes. When 
we have seen this process of Venezuela, we see that these kind 
of problems happened in the past.
    I mean, I can quote, for example, the case of the mission 
that observed elections where Fujimori made the fraud. And that 
Permanent Council, those days, did not approve the report of 
the mission and supported Fujimori. The countries that were 
sitting there supported Fujimori in that case. So it is not the 
first time that happens that it is difficult to collect the 
votes of countries that they just do not want to vote against 
their national interest or their political interest.
    So we have to keep working. And the principles are there. 
The values are there. And we may be able to keep convincing 
people and keep convincing countries. We have convinced a lot 
of public opinion. We have taken the impunity away from the 
government, and we keep pushing. If we see the process since 
the 31st of May when I presented my first report to now, when I 
presented my first report, I was practically alone talking 
about political prisoners in Venezuela, talking about the needs 
to implement the recall referendum that was the institutional 
solution of the country, and of course, to stop stripping the 
powers of the National Assembly. If we see me myself alone 
there and now we have 20 votes in Cancun, we have improved a 
lot.
    And I think if you ask me, I support the decisions of the 
countries that went through the process of consultation meeting 
of minister of foreign affairs, but the rules of the meetings 
of minister of foreign affairs is that the decision have to be 
approved by two-thirds of the member states. If we would have 
gone through the application of the Inter-American Democratic 
Charter, we should have just needed a simple majority, and that 
I think was the problem, more the procedure than the number of 
votes.
    Senator Menendez. Thank you.
    Senator Rubio. And the ranking member has entered into the 
record, without objection, a portion of your statement that he 
read. He also entered the name of the 20 countries, and that of 
course will be entered into the record without objection.


    [The information referred to above was not available when 
this hearing was printed.] <greek-l>List of countries voting in 
favor of Venezuela resolution deg.


    Senator Rubio. And I would just note for the record that 
those countries, those 20 countries, represent a billion 
people, and 90 percent of the population of the member states 
are represented in those 20 countries.
    With the Senator from Virginia's indulgence, I just want to 
go ahead and put some things on the record. I do not want to 
forget.
    I am going to ask that three reports that you presented to 
the Permanent Council, Secretary General, of the OAS on the 
situation in Venezuela be entered into the record as part of 
the statement. The first two reports lay out the deterioration 
of the humanitarian situation, as well as the complete 
alteration of the constitution on democratic order. They also 
represent a series of recommendations that offer guidance for 
the international community.
    The third report was released this week. It details the 
strategic and systematic violent repression targeting the 
unarmed civilian population in Venezuela.
    And in addition, I also ask that the Permanent Council 
Resolution 1078 recognizing the alteration of the 
constitutional order be entered into the record.
    And finally--this is interesting--a report from the Office 
of the Attorney General of the Bolivarian Republic of 
Venezuela, meaning the Attorney General of theoretically the 
Maduro regime itself, released a report on July 10th detailing 
the 92 deaths of demonstrators at the hands of Venezuelan 
security forces during the first 100 days. And I ask and, 
without objection, it will be entered into the record.


    [The information referred to is located at the end of this 
transcript.]


    Senator Rubio. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chair.
    And thank you, Mr. Secretary General. This is a very 
important hearing, and I think we are all in agreement on the 
diagnosis and we are looking for the prescription [Spanish 
spoken].
    And one of the questions I want to ask to follow up on 
Senator Menendez's question is this: the vote in Cancun. You 
started in a lonely position, as you say, and then in Cancun, 
20 votes. What would the effect have been in your estimation if 
the vote in Cancun had followed this referendum, 7.2 million 
Venezuelans turning out in the referendum and overwhelmingly 
rejecting the prospect of a dramatic rewrite by the Maduro 
Government of the constitution? Do you think there are 
abstentions or no votes, within that Cancun vote, that seeing 
this significant turnout and the significant will of these 
voters, might rethink their position, or do you think if we had 
this Cancun vote, it would likely come out the same? I am 
curious.
    Secretary General Almagro. This is not so easy to speculate 
about votes in international organizations. It will depend on 
the circumstance. It will depend a lot on the words that we use 
for the resolutions that we are planning to instrument.
    The thing is, in any case, that I am extremely positive 
about the 20 votes, and I am extremely positive about how loud 
the minister of foreign affairs were during the General 
Assembly in Cancun. I think all those are very positive actions 
that happened in Cancun. It was not at all a failure. I would 
not describe it like that, not in the wildest dreams.
    Senator Kaine. Let me ask it this way if I could. What 
would you predict--setting aside voting in the OAS, what would 
you predict would be the follow-on consequence of this 
referendum vote, which was so strong? Do you think it will have 
any affect on the situation going forward, or is the Government 
just going to say we do not care about it and will it then sink 
back en silencio?
    Secretary General Almagro. The government did not like it 
but showed something very positive: the extraordinary capacity 
of organization on mobilization of the opposition and the 
National Assembly. We have to see the positive of what went on 
there. The government is not ready yet to respond in a positive 
way to that consultation that was done. Those questions that 
were asked, the way that people answered are mandatory for all 
of us, and we should take it as mandatory for all of us, are 
mandatory, in fact, for the president of the Bolivarian 
Republic of Venezuela, and he should be implementing this 
measure now. But that is not the logic of the government.
    The logic of the government is keep playing games or will 
find somebody that will keep playing games with them. And if 
playing the game does not work like Senator Rubio said, then 
will come more repression on the country. How long they can 
hold that repression I do not know. But the scenarios that we 
see are very ugly for Venezuela, are awful for Venezuela.
    Senator Kaine. Let me switch to another topic that is 
related. The Attorney General Luisa Ortega had been a loyalist 
and ally of the Maduro regime, but in March of this year, as 
you described, she spoke against an attempt by the Supreme 
Court to strip the National Assembly of powers, and she has 
since been critical of President Maduro for creating, ``a 
climate of terror.'' The Supreme Court has banned her from 
leaving the country and frozen all of her assets.
    How significant is her decision to break with the regime? 
And would you see additional prospects or think there would be 
additional prospects for key defectors from the regime, people 
who have been allies to defect and become opponents in the near 
future?
    Secretary General Almagro. I mean, we have also to see that 
a substantial part of the Chaveista had democratic rules, and a 
lot of them--they believe in democracy. And the permanent 
electoral exercise that Venezuela did during the years of 
Chavez, of course, came to an end because mainly dictators--
they like elections when they are going to win them. If not, 
they are not useful for them.
    Senator Kaine. I have been on the side of a losing election 
recently. I like elections I am going to win too. [Laughter.]
    Senator Kaine. That is not just dictators.
    Senator Rubio. Well, I won and lost one in the same year. 
Try that. [Laughter.]
    Secretary General Almagro. But that is a very good thing 
and talks very well of you and of the system.
    And, of course, more people have moved. Former Minister of 
Interior Miguel Rodriguez del Toro has moved. You know there 
are something like about 100 officers of the military, of the 
army that are in jail. So there are a lot of cracks in that 
organization. So somehow we expect more people may come to the 
sides of democracy at the end of the day.
    Senator Kaine. Let me ask one other question. I was pleased 
to see the Trump administration state that they are looking at 
new sanctions against Venezuela, especially if they were to go 
through with the Government's plan to try to do a dramatic 
rewrite of laws and the constitution. Your testimony talked 
about sanctions as having a significant and salutary impact, 
and it is imperative that sanctions do not worsen the suffering 
of the Venezuelan people. But, however, targeted sanctions that 
hold those criminals responsible for the crisis and repression 
to account have been helpful.
    The news reports that I have read in ``Bloomberg'' suggest 
that the administration is definitely looking at targeted 
sanctions against key individuals, but also there is some 
suggestion there is tension inside the White House about which 
measures to adopt and whether to wait to see how Venezuela's 
constitutional issue plays out. Among the measures creating 
division is whether to impose some sort of ban on crude oil 
imports from Venezuela. What opinion would you have of that, 
just to give us your thought and perspective about how that 
might help or hurt the situation?
    Secretary General Almagro. You know, dictatorships stay 
only if they are pushed within the country, from inside the 
country. Unless you bomb them--and that is not the solution 
definitely--there is no way to push a dictatorship down from 
abroad. So sanctions may work and may not work. It depends of 
the internal pressure in the country.
    For example, there are sanctions that have worked, those 
against the apartheid in South Africa. They worked and at the 
end there were democracy in South Africa. But the whole country 
was committed to have democracy and to have one man, one vote.
    There are cases where these sanctions have not worked 
because the internal pressure was not enough to bring the 
dictatorship down like the Cuban case, for example.
    So at the end of the day, the most dramatic measure that 
can be taken are sanctions, but those sanctions have to be in 
order to back the people, in order to regain democracy. But it 
depends of the people of the country, and it will depend on the 
Venezuelans and their struggle to be able to achieve this 
solution. I think sanctions should be supportive of the 
Venezuelan people. I think sanctions should farther come and 
should have farther economic pressure on the Maduro 
dictatorship.
    Senator Kaine. Thank you.
    Thank you, Mr. Chair.
    Senator Rubio. The Senator from Colorado.
    Senator Gardner. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being here today.
    I had an interesting conversation with a gentleman last 
night from Colombia. He grew up in Colombia. He lives in the 
United States now. And he was talking about when they were 
children, if they wanted goods, if they wanted certain fresh 
products or produce, they would go to Venezuela, and they would 
have access to the goods, the produce that they could not get 
in Colombia. And he talked about the excitement they had in the 
family, when they were looking for that, to bring it home. And, 
of course, now what is happening in Venezuela is truly tragic 
because that is certainly not the case today.
    I want to get a little bit into some of the global policies 
affecting Venezuela as well. According to a report from 
Brookings Institute, on May 8, 2017, China--banks in China lent 
about $118 billion to Latin America between 2007 and 2014. 
During this time period, about 53 percent went to Venezuela. It 
is about $63 billion to Venezuela from Chinese banks.
    So could you talk a little bit about the extent of Chinese 
involvement in Venezuela, whether it is helping to prop up the 
Maduro government? Your perspective.
    Secretary General Almagro. Thank you very much.
    I can talk a little, of course. There are Chinese economic 
interests in Venezuela. Of course, I am sure China would like 
to have those interests completely safe, and that means that 
they will deal with the political situation in an objective 
manner.
    I think the interests there were mainly in projects of 
infrastructure. There were a lot of trade, and of course, there 
are big interests in energy. And those interests will remain 
there. And I think they do not have a strong connection with 
the institutional situation of the country. The institutional 
situation of the country--it happened in parallel to that and 
were not affected by this relation with China.
    Senator Gardner. Thank you.
    And with that investment infrastructure or otherwise, what 
type of leverage does China hold in Venezuela, and could the 
U.S. work with them to find a solution there?
    Secretary General Almagro. Mainly there were investments in 
the industrial sector. There were investments in the oil 
exploration, exploitation. There were investments in 
infrastructure, roads and ports and such for energy. So mainly 
those were the business I remember. So I think also there was 
some financial agreements, of course, the exchange of oil. 
There were a big joint commission, but that is like a normal 
bilateral relation, let us say.
    Senator Gardner. So in your opinion, the U.S. should not be 
concerned about Chinese financing of the Venezuelan Government?
    Secretary General Almagro. I do not think we should have a 
concern about that, and I think those agreements were done in 
good faith by the Chinese Government. And of course, a new 
Venezuelan Government should be able to reformulate them as 
possible in any agreement with China.
    Senator Gardner. Thank you, Mr. Chairman.
    Senator Rubio. And just for a point of clarity on it--and I 
am going off the Congressional Research Service here. First of 
all, let us just describe the situation in Venezuela today. By 
estimates, Venezuela has international reserves of 
approximately $10 billion according to this report, but its 
financing needs for 2017 are $17 billion. So they got a $7 
billion hole at minimum. So they are taking extraordinary 
measures to repay creditors and unusual steps to raise cash.
    For example, it has turned to loans to China and to Russia. 
These loans are paid with oil deliveries. So they are, in 
essence, taking the oil that belongs to the people of Venezuela 
and selling it at a discount to China or giving it to China and 
Russia at a discount in exchange for the cash, and even there, 
they have fallen behind on the arrangements.
    And, of course, the well-reported sale of $2.8 billion in 
bonds issued by the state-run oil entity that was sold to 
Goldman Sachs for $865 million. So $2.8 billion of bonds in 
exchange for $865 million in cash. They are now also attempting 
to sell $5 billion in bonds issued in December at a steep 
discount.
    So one of the things that people do not realize is what the 
regime has done is they have taken oil, which belongs to the 
people of Venezuela. Instead of selling it at market price, 
they are using it as payment in exchange for funds. And in the 
case of Russia, Russia has even taken a 49.5 percent stake in 
CITGO, which is an American subsidiary of the state-run entity. 
They own multiple pipelines and refineries in the United States 
of America.
    They are also engaged in the same sort of trade with Cuba 
where they pay the Cubans in oil in exchange for doctors and 
other services such as intelligence and repressive advisory 
services, which Cuba is one of the few countries in the world 
that offers that as a service as they teach you how to repress 
your people.
    And that is the question that I wanted to get to in my 
second round here. We have not spoken about it. Not enough 
attention has been paid to it. I am not sure that people are 
fully aware of the extent to which the Cuban Government is 
deeply entrenched in the security apparatus of the Venezuelan 
Government. And we have seen the reports that they are deeply 
entrenched and control everything from passports and travel 
documents to the personal security of Chavez and now Maduro and 
others.
    And certainly their hand is visible in all of these 
measures that are being taken, including the release of 
Leopoldo Lopez to his home. He is not released. He is on house 
arrest. We are very happy he is with his family and his wife. 
He should not be detained at all. But it is a very typical 
Cuban Government move where they release someone into house 
arrest, but they are still not free and able to operate.
    We have not discussed the role of Cuba providing assistance 
to the Venezuelan Maduro Government. I know they have other 
allies in the region, but Cuba is a critical ally.
    I guess I will ask you, in the way you deem appropriate, if 
you could describe the role that Cuba plays in sustaining the 
Maduro operations that we see today.
    Secretary General Almagro. First of all, we have to say 
that everybody is taking profits of this weak Venezuelan 
Government, weak in the sense that they do not have the 
economic and financial possibilities that they had in the past. 
So if we see any agreement that they have done, they have given 
away a lot of these resources of the people. Every negotiation 
have given away a lot of these resources of the people. And 
everybody is taking profit of that, even Goldman Sachs as we 
have seen. They bought bonds for 30 percent of their values. 
That is like taking advantage of somebody that just needs money 
in order to stay alive. The same kind of agreements happen all 
the time.
    Cuba has been there longer, has taken more profit than any 
other country of the region. If we see, the Cuban involvement 
is a serious one, and I think the Cuban management is like the 
worst advice that can exist in Venezuela these days.
    The Cubans passed a special period in the early 1990s. They 
passed it without energy, cash, or possibility to import food. 
And so, more or less, they are saying to Venezuelans, look, at 
your conditions. You have energy. You have cash. You can import 
some food in order to implement the CLAP bags. So this logic to 
sustain yourself through the repression is Cuban logic. You 
just keep repressing and keep repressing and you just stay in 
power because of that.
    If we see, they are practically everywhere. There are at 
least 15,000 Cubans in Venezuela. The colonial occupation army 
of Spain had 22,000 people. So this is like an occupation army 
that exists of Cuba in Venezuela. And, of course, they are not 
ready to leave this very profitable relation and they are not 
ready to leave behind a regime that is sustaining this 
relationship. And so that is one of the biggest problems that 
we have.
    Senator Rubio. I am looking forward in your statement. I 
know I saw it somewhere. You discussed--but here are some of 
the things, again from the Congressional Research Center. A 
2016 national survey released in March of this year found that 
27 percent of the people in Venezuela eat only once a day. 93.3 
percent of households lack enough income to purchase food. I 
believe I saw it in your statement or somewhere else about the 
amount of weight that Venezuelans have lost in the last year. 
Am I correct?
    Secretary General Almagro. Yes.
    Senator Rubio. What was the number?
    Secretary General Almagro. From 8 to 10 kilograms on 
average they lost during last year.
    Senator Rubio. So that is 19 pounds.
    Secretary General Almagro. Yes.
    Senator Rubio. So the average Venezuelan has lost 18 to 19 
pounds in the last year because of hunger.
    Secretary General Almagro. Two sizes smaller.
    Senator Rubio. Well, I saw a recent video of Nicolas Maduro 
and Diosdado Cabello. They have not lost any weight. 
[Laughter.]
    Secretary General Almagro. No. We have improved a lot.
    Senator Rubio. In fact, I have not seen any weight loss 
among virtually anyone at senior levels of the government.
    Secretary General Almagro. This is something that the 
people are suffering. People are suffering these shortages. 
Their children usually are abroad in Europe or here in North 
America. They do not run in the same conditions as the rest of 
their people.
    Senator Rubio. Well, the last point you raise in your 
testimony had to do, I believe, with infant mortality, and you 
compared it to the infant mortality rate in another country. 
And I am searching for it now, but I think, if I am not 
mistaken, you state in your testimony in 2016, seven children 
died each day before reaching the age of 1. There are better 
survival rates for newborns in Syria. Does that, in your 
recollection, remain an accurate assessment? In Syria. The 
survival rate of newborns is better in Syria than it is in 
Venezuela under the Maduro regime.
    Secretary General Almagro. Yes.
    Senator Rubio. And for the record, there is no U.S. embargo 
against Venezuela or any embargo from anyone. The only embargo 
on the people of Venezuela is self-imposed by the Maduro 
regime.
    Secretary General Almagro. Yes. But it is what I said in my 
presentation. The money of the resources that belong to the 
people--they just go to kill the people, torture the people, 
and nothing is provided to them. So any sanction in Venezuela 
will not worsen the situation of the people at all.
    Senator Rubio. The ranking member.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, again thank you for your testimony, for your 
insights, for your leadership.
    Mr. Chairman, I hope that we can think about some other 
possibilities here. For example, it seems to me that if those 
who invest in PDVSA, which seems to be the cash cow for the 
regime, ultimately know that their stock, for example, that the 
Committee on Foreign Investment in the United States will look 
seriously about whether or not such an investment, particularly 
in critical infrastructure of the United States, in energy 
would not be permitted, that it would reduce the value of 
PDVSA's engagement. It would reduce the allure of those both in 
the private sector and governmentally who are looking at PDVSA 
and taking shares.
    I look at the countries that I named earlier, and whether 
it is a Millennium Challenge account that we have had or 
whether it is a series of our other aid, I mean, peaceful 
diplomacy is a combination of the use of your aid, your trade, 
and of course, the denial of aid or trade in a pejorative way 
to get countries to move in a direction that is in their 
national interests.
    I really believe that the dramatic testimony of the 
Secretary General about what is happening in Venezuela, which I 
largely knew, but it has been dramatized by his testimony, and 
the incredible importance of Venezuela, the country, its size, 
its energy, its people in the midst of Latin America is a 
national security question of the United States. What happens 
if people massively seek to flee? What happens with the 
questions of illicit narcotic flows and the use of money 
laundering and a whole host of other things?
    So I would hope that we would urge the State Department to 
use all the tools of foreign diplomacy and the administration, 
which has seemed predisposed to seeking to do things, to look 
at a wide variety of things, CFIUS, the Committee on Foreign 
Investment, the use of our aid, the use of our trade, the 
denial of such because as the Secretary said, at every step in 
this crisis, it has always been too little too late. I do not 
think that we can afford to continue too little too late on 
behalf of the people of Venezuela or for that fact in our own 
national security interest.
    Senator Rubio. And just to echo the ranking member's 
comments--first, let me add this. We did not get a chance to 
get to it today, but I would remind those watching here in the 
United States that we should not forget the case of an American 
citizen from Utah named Joshua Holt. He is an innocent American 
who has been unjustly detained in Venezuelan jails now for over 
a year caught up in the middle of all this crisis with absurd 
and ridiculous accusations.
    On the ranking member's point, I have said this in the past 
and people took it as a threat. It is not a threat. It is an 
honest observation about the state of affairs. I do not think 
you need to be a daily watcher of the news and politics to 
understand there is a vibrant debate in the United States about 
how much money this Nation should be investing in foreign aid. 
And I have long been a supporter, as has the ranking member, 
for U.S. engagement in the world and in the region. But we have 
a debate about how much money the United States should be 
investing.
    And I can tell you it is a debate that becomes very 
difficult when the debate is about investing money in nations 
that are our partners under the guise of we want to support 
them because they are democracies when these nations and the 
only international forum in the region designed to defend 
democracy are unwilling to do so for whatever the reasons may 
be. Maybe some of them have been involved in illicit activity 
that they do not want to be outed on and blackmailed by the 
Venezuelan regime. Perhaps others have an ideological affinity, 
whatever it might be. It is difficult, not a threat. I am just 
being honest. It is a difficult as a U.S. policymaker to turn 
to my colleagues from all across the country and argue that we 
should be funding millions of dollars of aid to countries who 
then turn around and support this, not support this militarily, 
not support this economically, supported it with a vote at the 
organism in the region designed to defend democracy.
    I do not understand how you can claim to be a democracy if 
you are not willing to support it at an international organism 
like the OAS. And that is just a fact. And that is going to be 
part of the debate in the months and weeks to come. Foreign aid 
is not charity. We do it because it defends our values as a 
Nation, and we do it because it is in our national interests. 
So I say that.
    On the issue of these companies, the ranking member is 
absolutely right. Most Americans do not realize that if 
Venezuela defaults, CITGO is going to be owned by a Russian 
entity. And CITGO is a U.S. subsidiary that has pipelines. It 
has refinery operations in multiple States. I am going to take 
a wild guess that that will not be very popular here in the 
United States of America or here in the United States Congress, 
given recent events. I do not think that is going to happen.
    And so I think if you are Vladimir Putin and his good 
friend who runs and owns that company and operates it for the 
benefit of their corrupt cronies over there, you just realize 
you own 49.5 percent of bad debt because the only way you are 
ever going to get your debt repaid is a functional society in a 
country that operates and has an economy, not this disaster.
    As far as the Chinese are concerned, I am sure they would 
like to have more reach in the Western Hemisphere, but I can 
tell you what their number one concern is: they want to get 
paid back. They paid for this oil at a discount. They got a 
good deal. They expect to get the oil. And if they do not get 
the oil, it will be humiliating--humiliating--to the Chinese 
Government that made this bad loan where they gave all this 
cash in exchange for oil and they are not going to get it.
    And my message to the Chinese Government is these guys will 
never be able to pay you back. This is a dysfunctional narco 
state that is in a death spiral in terms of its ability to 
function. If you want to get paid back on your debt, the best 
thing that could happen for China is for a functional nation 
state that restores democracy and has an economy that works and 
can actually produce oil again because the oil does not 
magically produce itself. You have to have people willing to 
show up to work and people that know what they are doing.
    But this is what happens to an oil industry when all of 
your buddies and friends that know nothing about the industry 
get put in charge of it. And that is what has happened here. It 
became a piggybank for everybody.
    And the third point is on those in Wall Street that are 
thinking about it, the reputational damage of those who bail 
out Venezuela is going to be extraordinary. All this stuff is 
being documented as much as anywhere in the world. The list is 
extensive of people that have been jailed and oppressed. And I 
know that there are some good deals to be had in their minds in 
terms of the balance sheet, but I can tell you that whether 
they are a large multinational entity or a hedge fund looking 
to make a quick buck, the reputational damage of lending money 
to this regime will be extraordinary. It is not a threat. It is 
a promise that I intend to talk about you if you do it. And 
people will know it, and we will see what that means in the 
short and long term.
    So this is a distressing situation. We are 13 or 12 days 
away from what I think will be, if it happens, a tragic and 
unacceptable outcome in our own hemisphere. As I said at the 
outset, it will be the first time in almost 4 decades that you 
have a formal structural abandonment of democracy in exchange 
for a Cuban-style dictatorship, perhaps even worse in some ways 
if that is even possible. And I just do not know how that is 
going to go over very well. And I hope we can get more of our 
colleagues interested in this topic because my bigger fear on 
this side of the equation, meaning as policymakers in the 
United States, is this is a very serious situation that could 
lead to all sorts of destabilizing effects in the region, 
including mass migration problems beyond what we have already 
seen now, a deep, endemic humanitarian crisis and, God forbid, 
violence probably initiated by the regime. And it could come 
upon us very quickly here if we are not prepared to address it.
    I believe from everything I have seen and heard and talked 
about with them that the U.S. administration not only wants to 
address it and be serious but is looking for partners in the 
hemisphere to work with, hopefully through the OAS or perhaps 
as a group of friends through the OAS. But July 30th will not 
come and go with a press release. Of that, I am 100 percent 
confident.
    I thank you for being here today. I know how busy you are, 
how much time you spent on this. By the way, for those who do 
not know, you have been the subject of extraordinary personal 
attacks by the Maduro regime and the other thugs that surround 
them. I know it does not necessarily matter to you directly but 
your efforts have been noticed there, and I think anyone who 
they attack, I think that is a badge of honor. And so I just 
thank you for the efforts. They have been extraordinary, and we 
hear that from everyone everywhere.
    And you say you were alone when you started. It is true. 
There is no way we would be at 20 votes without your leadership 
on this topic. I am convinced that that number will grow in the 
weeks to come.
    So thank you so much. We are honored that you came here 
today.
    Secretary General Almagro. Thank you.
    Senator Rubio. And with that, I thank everyone for being 
here.
    The record will remain open for 48 hours. I intend to 
submit additional questions for the record. We will get them to 
your office. We will work out a process to make sure they are 
part of our record.
    And with that, our hearing is adjourned.


    [Whereupon, at 5:37 p.m., the hearing was adjourned.]



                              ----------                              


Prepared Statement Submitted by Luis Almagro, Secretary General of the 
                    Organization of American States


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


              Additional Material Submitted for the Record

  Statement for the Record Submitted by Carlos Vecchio, LLM and MPA, 
   National Political Coordinator of Voluntad Popular (Popular Will, 
      opposition political party, member of the Unitary Alliance)

    Thank you Chairman Rubio, Ranking Member Senator Bob Menendez and 
members of the committee, for inviting me to submit a written testimony 
before you today.
    It has not been easy for me to get where I am today. I find myself 
doing what I have never been able to do in my own country; to present 
before an independent, public institution and give my testimony. I have 
experienced the political persecution imposed by the reigning 
dictatorship of Venezuela first hand. In 2014, after I had called for 
peaceful protests for the rights of the Venezuelan people, the Maduro 
administration decided to file a warrant for my arrest for political 
reasons. This was done five days after filing the arrest warrant for 
Leopoldo L"pez, my party leader. I went into hiding for over 100 days. 
They were unable to capture me. After that I decided to leave the 
country in order to be able to denounce the injustices in Venezuela 
internationally.
    I have come here in order to reaffirm what you yourselves have 
indicated in various resolutions approved by the United States 
Congress. There is no democracy in Venezuela. There is a dictatorship. 
A corrupt dictatorship that has driven my country into the worst 
historic crisis that we have seen since the twentieth century.
    From a political perspective, the elections in Venezuela have been 
suspended. In 2016 Nicol s Maduro chose to disregard the recall 
referendum that had been signed and activated by the signatures of over 
four hundred thousand Venezuelans. Venezuelan regional elections are 
behind schedule. There are over 400 political prisoners, something that 
is incompatible with the very concept of democracy. Separation of 
powers is non existent. I want to especially highlight the use of the 
Supreme Court under Maduro's control in their de facto dissolving of 
the Venezuelan National Assembly. From an economic perspective, the 
regime has been an unprecedented catastrophe. Our gross domestic 
product has gone down by almost 24% in the last three years. We have 
the highest inflation rate in the world, nearing 1,000%. From a social 
perspective, we have become one of the most violent countries in the 
world, as well as having an 80% poverty rate according to the latest 
study from the best universities in Venezuela.
    We have been protesting for over 100 days in an attempt to 
reestablish constitutional order in Venezuela. In the course of these 
protests more than 90 people have lost their lives, thousands have been 
arrested illegally, and there have been countless wounded. The Maduro 
administration no longer has the support of the people. More than 80% 
have rejected his platform. Maduro insists on using repression and 
terror in order to remain in power, following Cuba's lead. He has 
proposed a fraudulent constitutional assembly in order to remain in 
power despite not having the support of the people. This aggravates the 
crisis even further.
    On July 16, within the framework of these protests, the opposition 
carried out a referendum to gain popular support for our fight. It was 
entirely a grass-roots process, since it was done without the 
assistance of any Venezuelan public authority. More than7.6million 
Venezuelans took part. If the recall election had taken place on that 
day, Maduro's mandate would have been revoked. This level of 
participation sends a clear message to the country and the world that 
we want to reestablish constitutional order in Venezuela in a peaceful, 
and democratic fashion. For over 100 days, these millions of 
Venezuelans showed up for peaceful protests, to declare their 
indignation in the face of economic and social chaos, to demand liberty 
for political prisoners, and to put an end to the fraudulent 
constituent assembly.
    Maduro has sought to manipulate the international community with 
his proposed constituency, as he would if their formation had come 
about from something resembling a legitimate election. Even if Maduro 
has the prerogative to activate a constitutional assembly process, it 
would still need to be approved by the people by way of a referendum. 
This is the step that Maduro does not want to comply with. He does not 
want to ask the people if they want to change the constitution, and 
it's because he does not have the support of the people. As a matter of 
fact, not even the candidate selection process respects universal 
voting rights, something enshrined in the constitution, since Maduro 
has arbitrarily divided the population into groups (workers, farmers, 
etc), deciding for himself who gets to represent them and who gets to 
elect them. In this way, when determining the number of members in the 
assembly, the populations of each group are not taken into account. 
This is why we declare that this constituency is a fraud, as it does 
not respect the constitution, or democratic principles.
    The international community needs to put pressure on them in order 
to force an effective negotiation, and they should be more stringent 
this time, recalling the failed dialogues of 2016, which the United 
States were involved in. At this time it is not enough to remove the 
fraudulent constituent assembly, as this would leave us back at square 
one with protests. In order to restore constitutional order we need: i) 
General elections with the presence of international observers, ii) The 
swift liberation of all political prisoners and anyone imprisoned 
arbitrarily and without due process, iii) Restore the full 
constitutional competencies of the National Assembly, and iv) Support 
for a humanitarian aid fund.
    It is important to keep in mind that there is an irreversible 
political change that the Maduro regime won't be able to stop. We 
should increase the pressure so that this change happens sooner rather 
than later, and with the least possible suffering of our people. Our 
conflict should be resolved by the Venezuelan people themselves, 
although the international community plays an important and stellar 
role in helping and supporting us in the reestablishment of democracy 
in Venezuela.
    Under these circumstances, it is a challenge for the U.S. to 
participate in a constructive way. Therefore, with all due respect, I 
would recommend the following steps or actions:

 1. The continued application of necessary pressure along with allies 
        from neighboring countries in order to force an effective 
        negotiation. This is particularly important for multilateral 
        organisms such as OAS and the United Nations. In keeping with 
        this line we should also seek to continue to engage the 
        European Union.
 2. Continue and expand targeted sanctions against those responsible 
        for human rights violations, as well as against those people 
        connected to the regime who have profited through corrupt deals 
        and criminal undertakings. These should also include the 
        associates and families of the people involved.
 3. To the extent that the U.S. laws permit, the U.S. should release 
        all evidences, accounts, and assets of the people involved in 
        corrupt deals.
 4. Request not only the repeal of the fraudulent constituency, but 
        also alert them immediately that no results from such an 
        election will be recognized by any democratic government in the 
        world. Additionally, ask other world governments to do the 
        same. It should be clear that if Maduro implements his 
        fraudulent constitutional assembly in any way, the United 
        States will not recognize anything approved thereby.
 5. To the extent that U.S. law permits, the U.S. should prohibit the 
        use of its financial system for transactions that imply further 
        debts or any restructuring of existing public debts for 
        Venezuela without the approval of the democratically elected 
        Venezuelan National Assembly.
 6. To the extent that U.S. law permits, the U.S. should prevent oil 
        and mining joint ventures associated with the Maduro regime 
        that have not been approved by democratically elected 
        Venezuelan National Assembly. Furthermore disseminate 
        information about the risks involved with oil and mining 
        companies associated with the Maduro regime. (Oil and mining 
        associations require the approval of the National Assembly as 
        per Venezuelan law).

                                             Carlos Vecchio

                               __________


                 Organization of American States (OAS)


            Report on Venezuela, Submitted by Luis Almagro, 
                    Secretary General--May 30, 2016


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


    The report can be accessed by following the hyperlink 
below:


http://www.oas.org/documents/eng/press/OSG-243.en.pdf

                 Organization of American States (OAS)


        Updated Report on Venezuela, Submitted by Luis Almagro, 
                   Secretary General--March 14, 2017


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The report can be accessed by following the hyperlink 
below:


http://www.oas.org/documents/eng/press/Informe-VZ-II-English-
Final-Signed.pdf

              Resolution on the Recent Events in Venezuela

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Balance de Victimas Fallecadas y Lesionadas Durante--Manifestaciones en 
                          Abril-Julio de 2017


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                  [all]
</pre></body></html>
